Certification of Word Count
No.

In the

Jiuprtmt (dtmri erf tfje ^Lniith Jiiates
Kevin K. Tung, Petitioner
v.
Janet Yijuan Fou
PETITION FOR WRIT OF CERTIORARI

As required by Supreme Court Rule 33.1(h), I certify that the
document contains 6644 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on 64*/2021

RofCurry
Curry & Taylor
1726 Nevada Ave NE
St. Petersburg, FL 33703
(202)350-9073

